No. 20-843
IN THE SUPREME COURT OF THE UNITED STATES
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL., PETITIONERS
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE IN ORAL
ARGUMENT AS AMICUS CURIAE, FOR ENLARGEMENT OF TIME FOR ORAL
ARGUMENT AND FOR DIVIDED ARGUMENT, via email and first-class mail, postage
prepaid, this 21st day of September 2021.
[See Attached Service List]

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 21, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0843
NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., ET AL.
KETH M. CORLETT, ET AL.

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
NEAL GOLDFARB
BUTZEL LONG TIGHE PATTON PLLC
1301 FAIRMONT ST., N.W.
WASHINGTON, DC 20009
202-262-7886
GOLDFARBNEAL@GMAIL.COM
JOSEPH GARY SAMUEL GREENLEE
FIREARMS POLICY COALITION
1215 K STREET
17TH FLOOR
SACRAMENTO, CA 95814
916-378-5785
JGR@FPCHQ.ORG
DAN MARK PETERSON
DAN M. PETERSON, PLLC
3925 CHAIN BRIDGE ROAD
SUITE 403
FAIRFAX, VA 22030
703-4253741
DAN@DANPETERSONLAW.COM

JOHN MICHAEL REEVES
REEVES LAW LLC
3703 WATSON RD.
ST LOUIS, MO 63109
314-775-6985
REEVES@REEVESLAWSTL.COM
D JOHN SAUER
OFFICE OF THE ATTORNEY GENEAL
SUPREME COURT BUILDING
207 WEST HIGH STREET
P.O. BOX 899
JEFFERSON CITY, MO 65102
573-751-3321
JOHN.SAUER@AGO.MO.GOV
BARBARA DALE UNDERWOOD
SOLICITOR GENERAL
OFFICE OF THE ATTORNEY GENERAL
28 LIBERTY STREET
NEW YORK, NY 10005-1400
212-416-8016
BARBARA.UNDERWOOD@AG.NY.GOV

